TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Reduction Targets and Strategies Have Not
                 Been Established to Reduce the Billions of
                   Dollars in Improper Earned Income Tax
                         Credit Payments Each Year



                                         February 7, 2011

                              Reference Number: 2011-40-023




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

    Redaction Legend:
    2(f) = Risk Circumvention of Agency Regulations or Statutes




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


REDUCTION TARGETS AND                               efforts to regulate tax return preparers will
STRATEGIES HAVE NOT BEEN                            reduce the improper payment rate. However, it
ESTABLISHED TO REDUCE THE                           is unknown whether the regulation of tax return
BILLIONS OF DOLLARS IN IMPROPER                     preparers will result in a significant reduction in
                                                    EITC improper payments.
EARNED INCOME TAX CREDIT
PAYMENTS EACH YEAR                                  TIGTA has conducted a number of audits that
                                                    have provided the IRS with specific actions that
                                                    could be taken to reduce improper payments.
Highlights                                          While the IRS has implemented some of our
                                                    recommendations, it has not taken actions to
Final Report issued on February 7, 2011             address key recommendations aimed at
                                                    preventing/reducing EITC improper payments.
Highlights of Reference Number: 2011-40-023         TIGTA also found that the methodology used to
to the Internal Revenue Service Deputy              compute the Fiscal Year 2009 EITC improper
Commissioner for Operations Support.                payment rate provides a valid estimate of EITC
IMPACT ON TAXPAYERS                                 overpayments. The IRS used results from its
                                                    National Research Program to estimate the
The Government Accountability Office has listed     2009 EITC improper payment rate. While one
the Earned Income Tax Credit (EITC) Program         goal of the National Research Program may be
as having the second highest dollar amount of       to identify noncompliance, the statistical nature
improper payments of all Federal programs.          of the study provides the IRS the opportunity to
The Internal Revenue Service (IRS) has made         estimate EITC underpayments.
little improvement in reducing EITC improper
payments since 2002 when it was first required      WHAT TIGTA RECOMMENDED
to report estimates of these payments to            TIGTA recommended that the IRS establish
Congress. The IRS continues to report that          quantifiable reduction targets and strategies to
23 percent to 28 percent of EITC payments are       meet those targets and use the National
issued improperly each year. In Fiscal              Research Program sample to estimate instances
Year 2009, this equated to $11 billion to           in which the IRS incorrectly pays less in the
$13 billion in EITC improper payments.              EITC than the taxpayer claims (underpayments).
WHY TIGTA DID THE AUDIT                             In their response, IRS officials agreed with our
This audit was initiated because Executive          first recommendation and agreed in concept with
Order 13520 requires the Secretary of the           our second. Specifically, the tax return preparer
Treasury to provide specific information            initiative will enable the IRS to have a baseline
regarding EITC improper payments to TIGTA.          against which it can set meaningful reduction
The objective of this review was to assess the      targets. The IRS will explore whether the
IRS’s efforts to implement Executive                recommendation on estimating underpayments
Order 13520.                                        is possible and practical.

WHAT TIGTA FOUND                                    TIGTA does not believe the IRS response is
                                                    adequate. The loss of billions of dollars in
Executive Order 13520 requires the IRS to           improper EITC payments annually calls for more
intensify its efforts and set targets to reduce     aggressive and immediate actions to reduce
EITC improper payments. The IRS’s report to         improper payments. Executive Order 13520
TIGTA did not include any quantifiable targets to   requires the IRS to intensify its efforts and set
reduce EITC improper payments. IRS                  targets to reduce EITC improper payments. The
management noted that reduction targets were        IRS has not met this requirement and, as a
not set because the IRS has to balance              result, the risk remains high that no significant
enforcement efforts among different taxpayer        improvement will be made in reducing improper
income levels. The IRS stated that its new          EITC payments.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 7, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Reduction Targets and Strategies Have Not Been
                             Established to Reduce the Billions of Dollars in Improper Earned
                             Income Tax Credit Payments Each Year (Audit # 201040044)

 This report presents the results of our review to assess the Internal Revenue Service’s (IRS)
 efforts to implement Executive Order 13520. Under the Executive Order, the Treasury Inspector
 General for Tax Administration is to review the IRS’s report on Earned Income Tax Credit
 improper payment information and provide the IRS Commissioner with recommendations for
 modifying its plan to address such payments. This review addresses the major management
 challenge of Erroneous and Improper Payments and Credits.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                               Reduction Targets and Strategies Have Not Been
                            Established to Reduce the Billions of Dollars in Improper
                                Earned Income Tax Credit Payments Each Year




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Risk Remains High That No Significant Improvement
          Will Be Made in Reducing Improper Earned Income Tax
          Credit Payments ............................................................................................ Page 3
          Information Required by Executive Order 13520 Was Not
          Included in the Report to the Treasury Inspector General
          for Tax Administration ................................................................................. Page 5
                    Recommendation 1:........................................................ Page 10

          The Internal Revenue Service Continues to Improve Its
          Estimation of Earned Income Tax Credit Improper
          Payments ....................................................................................................... Page 13
                    Recommendation 2:........................................................ Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Internal Revenue Service Report to the Treasury
          Inspector General for Tax Administration .................................................... Page 21
          Appendix V – Management’s Response to the Draft Report ....................... Page 32
           Reduction Targets and Strategies Have Not Been
        Established to Reduce the Billions of Dollars in Improper
            Earned Income Tax Credit Payments Each Year




                    Abbreviations

EITC          Earned Income Tax Credit
FY            Fiscal Year
IRS           Internal Revenue Service
NRP           National Research Program
OMB           Office of Management and Budget
TIGTA         Treasury Inspector General for Tax Administration
TY            Tax Year
                             Reduction Targets and Strategies Have Not Been
                          Established to Reduce the Billions of Dollars in Improper
                              Earned Income Tax Credit Payments Each Year




                                           Background

The Earned Income Tax Credit (EITC) is a refundable Federal income tax credit for low- to
moderate-income working individuals and families. Congress originally approved the tax credit
legislation in 1975 in part to offset the burden of Social Security taxes and to provide an
incentive to work. When the EITC exceeds the amount of taxes owed, it results in a tax refund
to those who claim and qualify for the credit. The Internal
Revenue Service (IRS) reported that 24 million taxpayers
received $55 billion in the EITC for Tax Year (TY) 2009.                  The Government
                                                                   Accountability Office has
The IRS is responsible for administering the EITC. IRS           listed the EITC Program as
efforts include education and outreach so taxpayers are          having the second highest
aware of potential eligibility requirements for the credit and   dollar amount of improper
programs to reduce improper payments. The Office of                payments of all Federal
Management and Budget (OMB) defines an improper                           programs.
payment as any payment that should not have been made or
that was made in an incorrect amount. Incorrect payments include overpayments as well as
underpayments. The IRS has estimated the EITC improper payment rate since Fiscal Year
(FY) 2005. The FY 2009 EITC improper payment rate is estimated to be between 23 percent to
28 percent or $11 billion to $13 billion in EITC improper payments each year.
In October 2001, the Government Accountability Office issued an Executive Guide – Strategies
to Manage Improper Payments. This Guide provided best practice recommendations for Federal
agencies to consider when developing strategies and planning and implementing actions to
manage improper payments in their programs. The Improper Payment Information Act of 20021
requires agencies to annually estimate the amount of improper payments and report to Congress
on the steps the agency is taking to reduce improper payments. The Act also requires agencies to
address whether they have the information systems and other infrastructure needed to reduce
improper payments. The report must also describe steps the agency has taken to ensure agency
managers are held accountable for reducing improper payments.
Executive Order 13520, signed by the President on November 20, 2009, further increases Federal
agencies’ accountability for reducing improper payments while continuing to ensure Federal
programs serve and provide access to their intended beneficiaries. The Order requires Federal
agencies to provide their agency Inspector General detailed information on efforts to identify and
reduce the number of improper payments in Federal programs with the highest dollar value of
improper payments. The Secretary of the Treasury is required to provide specific information


1
    Pub. L. No. 107-300, 116 Stat. 2350.

                                                                                           Page 1
                       Reduction Targets and Strategies Have Not Been
                    Established to Reduce the Billions of Dollars in Improper
                        Earned Income Tax Credit Payments Each Year



regarding EITC improper payments to the OMB and the Treasury Inspector General for Tax
Administration (TIGTA). The Executive Order requires the TIGTA, following receipt and
review of the reported information, to assess the level of risk associated with the EITC Program,
determine the extent of oversight warranted, and provide the IRS Commissioner with
recommendations for modifying the IRS’s plan to reduce EITC improper payments.
This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of Research, Analysis, and Statistics and in the Office of the Deputy Commissioner for
Operations Support during the period of June through September 2010. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 2
                          Reduction Targets and Strategies Have Not Been
                       Established to Reduce the Billions of Dollars in Improper
                           Earned Income Tax Credit Payments Each Year




                                     Results of Review

The Risk Remains High That No Significant Improvement Will Be
Made in Reducing Improper Earned Income Tax Credit Payments
The IRS has made little improvement in reducing EITC improper payments since being required
to report estimates of these payments to Congress in 2002. Based on our review of the IRS
report provided in response to Executive Order 13520, we believe there is a high risk the IRS
will continue to pay billions of dollars in EITC improper payments annually. The IRS continues
to report that 23 percent to 28 percent of EITC payments are issued improperly each year. In
FY 2009, this equated to $11 billion to $13 billion in EITC improper payments. Figure 1
provides a summary of the percentage of IRS estimated EITC improper payments and the
associated dollar amounts.
                            Figure 1: Payments for FYs 2003 to 2009
                                                               Minimum                 Maximum
             Minimum                  Maximum                  Improper                Improper
             Improper                 Improper                 Payments                Payments
            Payments2                 Payments                  Dollars                 Dollars
    FY      Percentage               Percentage                 (Billions)               (Billions)

2003            25%                       30%                      $9.5                    $11.5
2004            22%                       27%                      $8.6                    $10.7
2005            23%                       28%                      $9.6                    $11.4
2006            23%                       28%                      $9.8                    $11.6
2007            23%                       28%                     $10.4                    $12.3
2008            23%                       28%                     $11.1                    $13.1
2009            23%                       28%                     $11.2                    $13.3
Source: Various Department of the Treasury Performance and Accountability Reports and the 2009 Agency
Financial Report.

The IRS has established adequate oversight of the administration of the EITC Program. It has
designated an office dedicated to improving EITC participation and compliance. As we reported

2
  The IRS computes the minimum and maximum improper payment rates (referred to as the upper and lower
bounds) using different sets of assumptions concerning the compliance of EITC claimants who fail to show up for
the National Research Project audit.
                                                                                                         Page 3
                            Reduction Targets and Strategies Have Not Been
                         Established to Reduce the Billions of Dollars in Improper
                             Earned Income Tax Credit Payments Each Year



in December 2008, the IRS has developed processes to successfully identify billions of dollars in
erroneous EITC payments.3 However, Compliance function resources are limited and
alternatives to traditional compliance methods have not been developed, resulting in the majority
of the potentially erroneous EITC claims identified being paid in error. Beginning in TY 2005,
the IRS reallocated its examination resources across all areas of the tax code to address a greater
number of higher income taxpayers. This decision limited the number of EITC audits that the
IRS performs each year, *****2(f)*******************************************.
Although the IRS has developed better ways to identify potentially erroneous EITC payments, it
has not developed alternatives to address the erroneous claims it identifies. For example, the IRS
has spent millions of dollars developing probability filters4 to improve its selection of cases for
audit using information contained in the Dependent Database.5 By combining the use of
probability filters with external data included in the Dependent Database, the IRS increased its
EITC audit change rate (percentage of audits that result in a change to the EITC) from
                                             89.7 percent on TY 2004 tax returns to 93.9 percent on
                                             TY 2005 tax returns. The IRS’s audit selection process
        ***********2(f)********************* identified 594,312 TY 2005 EITC claims, totaling
        ************************************ $1.3 billion, for which information contained in the
  ****************************************** Dependent Database identified that the residency
     **************************************
       *************************************
                                             requirement did not appear to have been met.
             ****************************    *****2(f)*********************************
                                             *****************************************
                                             *******************************.
If the IRS does not move beyond traditional compliance methods, it will be unable to
significantly reduce the estimated $11 billion to $13 billion in EITC improper payments made
annually. IRS management acknowledges the limitations faced in significantly reducing
noncompliance using the traditional process of auditing tax returns. The IRS noted in its
June 2010 report to the TIGTA that it cannot fully address EITC noncompliance by simply
auditing returns and must pursue alternatives to traditional compliance efforts. However, the
IRS has not made significant progress to date in its pursuit of alternative compliance methods.




3
  The Earned Income Tax Credit Program Has Made Advances; However, Alternatives to Traditional Compliance
Methods Are Needed to Stop Billions of Dollars in Erroneous Payments (Reference Number 2009-40-024, dated
December 31, 2008).
4
  Probability filters are characteristics of noncompliance the IRS has developed using historical data and are used to
determine the likelihood that an EITC claim is erroneous.
5
  The Dependent Database is a risk-based audit selection tool used by the IRS to identify EITC tax returns for audit.
                                                                                                              Page 4
                       Reduction Targets and Strategies Have Not Been
                    Established to Reduce the Billions of Dollars in Improper
                        Earned Income Tax Credit Payments Each Year



Information Required by Executive Order 13520 Was Not Included in
the Report to the Treasury Inspector General for Tax Administration
The purpose of Executive Order 13520 is to reduce improper payments by intensifying efforts to
eliminate payment error, waste, fraud, and abuse while continuing to ensure that Federal
programs serve and provide access to their intended beneficiaries. The Executive Order required
the IRS to provide the TIGTA with a report that includes the methodology for computing the
error rate, plans for meeting improper payment reduction targets, and plans to ensure program
access and participation by eligible beneficiaries. In addition, the Executive Order also
established a quarterly reporting requirement.
The IRS provided the required report to the TIGTA on June 14, 2010. However, this report did
not include all of the information required by the Executive Order. Appendix IV provides a copy
of this report. Figure 2 details the IRS’s compliance with the Executive Order requirements to
provide specific improper payment information to the TIGTA.




                                                                                        Page 5
                          Reduction Targets and Strategies Have Not Been
                       Established to Reduce the Billions of Dollars in Improper
                           Earned Income Tax Credit Payments Each Year



        Figure 2: Compliance With Improper Payment Reporting Requirements
    Reporting                                                                             Requirement
    Frequency                              Requirement                                       Met?
One Time          Provide the TIGTA with a report containing:
                  • Methodology for identifying and measuring EITC improper                     Yes
                    payments.
                  • Plans and supporting analysis for meeting the reduction                     No
                    targets for EITC improper payments.
                  • Plans and supporting analysis for ensuring the initiatives                  No
                    undertaken do not unduly burden program access and
                    participation by eligible beneficiaries.

Quarterly         Submit a report to the TIGTA and Council of the Inspectors              Disclosure laws
                  General on Integrity and Efficiency on EITC improper                    limit the IRS’s
                  payments identified by the agency and make it available to the         ability to comply
                  public. The report shall describe:                                          with this
                                                                                           requirement.
                  • Number of high-dollar improper payments made during the
                    quarter.6
                  • Individuals or entities who received the high-dollar
                    payments.
                  • Actions taken or planned to recover the improper
                    payments.
                  • Actions the IRS intends to take to prevent improper
                    payments from occurring in the future.
Source: Executive Order 13520 and TIGTA analysis of IRS report entitled “Initial Report on Earned Income Tax
Credit (EITC) Improper Payments Executive Order 13520: Reducing Improper Payments” issued on
June 14, 2010.

Reduction targets were not included in the IRS report to the TIGTA
Executive Order 13520 requires the IRS to intensify its efforts and set targets to reduce EITC
improper payments. The Order requires the IRS to provide the TIGTA with its plans and
supporting analysis for meeting those targets. The IRS’s report to the TIGTA did not include
any quantifiable targets to reduce EITC improper payments. IRS management noted that
reduction targets were not set because it has to balance its enforcement efforts among different
taxpayer income levels. Increasing the number of EITC examinations it performs to further


6
  High-dollar improper payments are payments totaling more than $750 million that should not have been made or
that were made in an incorrect amount.
                                                                                                        Page 6
                           Reduction Targets and Strategies Have Not Been
                        Established to Reduce the Billions of Dollars in Improper
                            Earned Income Tax Credit Payments Each Year



reduce improper payments would disrupt this balance. Management indicated that the IRS
allocates more resources to conduct EITC compliance audits involving lower income taxpayers
when compared to other segments of the taxpayer population.
As detailed earlier in the report, the IRS has made no significant improvements in reducing EITC
improper payments. Without targets to reduce EITC improper payments as required by the
Executive Order, there is a lack of accountability for eliminating payment error, waste, fraud,
and abuse.

No basis was provided for the IRS’s assertion that new regulation of tax return
preparers will significantly reduce EITC improper payments
The IRS report notes that it has made a number of improvements to stop erroneous EITC
payments. These include improvements to the examination selection process and data matching
using third-party data. The IRS notes that its new efforts to regulate tax return preparers will
drive increased EITC compliance, decrease fraud, and reduce the improper payment rate. We
agree the regulation of tax return preparers will have some impact on reducing EITC improper
payments. Nonetheless, the IRS report does not provide details on when or how the IRS plans to
measure the impact of the tax return preparer strategy on EITC improper payments. It is
unknown whether regulation of tax return preparers will result in a significant reduction in the
EITC improper payment rate. Further, the IRS has just begun implementing the tax return
preparer strategy and does not anticipate the strategy will be fully implemented until 2014.
In addition, we recently completed a review of the IRS’s EITC Paid Preparer Strategy.7
Beginning in 1999, the IRS developed a strategy specifically focused on increasing tax return
preparer compliance with the EITC due diligence requirements.8 The IRS refers to this strategy
as the EITC Paid Preparer Strategy. Representatives from the IRS indicated that the EITC Paid
Preparer Strategy serves as a model for enforcement of tax preparer compliance within the new
IRS Paid Preparer Strategy. The results of our review show that Due Diligence visits9 to tax
return preparers as part of this strategy resulted in some reduction in erroneous EITC payments.
Specifically, we found of the 541 tax return preparers who received a Due Diligence visit in
FY 2009:
    •    414 (77 percent) tax return preparers appear to have changed their behavior. Of the 414,
         295 tax return preparers were still filing EITC claims but were no longer identified as
         potentially noncompliant in the IRS’s FY 2010 analysis. The remaining 119 tax return
         preparers appear to no longer be filing EITC claims. Although it appears these tax return

7
  Actions Can Be Taken to Improve the Identification of Tax Return Preparers Who Submit Improper Earned Income
Tax Credit Claims (Reference Number 2010-40-116, dated September 14, 2010).
8
  Due diligence requirements provide guidance to tax return preparers for ensuring that information used to claim the
EITC is correct.
9
  A Due Diligence visit is an examination to determine whether a paid preparer is in compliance with all four Due
Diligence requirements of Internal Revenue Code Section 6695(g).
                                                                                                            Page 7
                           Reduction Targets and Strategies Have Not Been
                        Established to Reduce the Billions of Dollars in Improper
                            Earned Income Tax Credit Payments Each Year



         preparers have changed their behavior, it is possible they are filing claims under a
         different Social Security Number or Preparer Tax Identification Number than the one
         used in the prior year.10
     •   127 (23 percent) tax return preparers were still identified as being potentially
         noncompliant in the FY 2010 analysis or were identified for a streamlined injunction.11
The IRS projects these efforts will reduce EITC improper payments by $45 million in FY 2010.
Although visits to egregious EITC tax return preparers are successful in changing the behavior of
those preparers, the amount of EITC improper payments protected is insignificant
(approximately $35 million in FY 2007 or 0.32 percent) when compared to the $11 billion to
$13 billion in improper payments reported by the IRS annually. The IRS must identify ways to
reduce EITC improper payments by billions of dollars a year to show any substantial
improvement in the improper payment rate.

The TIGTA has identified opportunities for the IRS to reduce EITC improper
payments, but little action has been taken
The IRS has a number of programs in place to identify and address improper EITC payments.
These programs include education and outreach programs, document matching to identify
income discrepancies, examinations to validate EITC claims prior to issuing the refund, and
math error processing to identify math or other statistical irregularities and adjust the tax return
before refund issuance. According to the IRS, its efforts protect more than $3.6 billion in
improper EITC payments annually.
The TIGTA has conducted a number of audits that have identified opportunities to reduce the
number of EITC improper payments. We have provided the IRS with specific actions that could
be taken to reduce improper payments and allow the IRS to establish measurable reduction
targets. While the IRS has implemented some of our recommendations, it has not taken actions
to address key recommendations aimed at preventing/reducing EITC improper payments.
Figure 3 summarizes our reported findings between June 2003 and September 2010 for actions
that the IRS either disagreed with or has not yet implemented along with estimates of erroneous
payments that could potentially be prevented/reduced.




10
   We believe the IRS will be unable to determine if a tax return preparer continues to file EITC claims under a
different Social Security Number or Preparer Tax Identification Number until it fully implements its tax return
preparer registration process.
11
   A streamlined injunction is a process used to expedite the investigation and prosecution, when warranted, of
individual tax return preparers who have repeatedly demonstrated egregious behavior with regard to filing improper
EITC claims. The result of a successful injunction is a court order prohibiting the tax return preparer from preparing
tax returns.

                                                                                                              Page 8
                           Reduction Targets and Strategies Have Not Been
                        Established to Reduce the Billions of Dollars in Improper
                            Earned Income Tax Credit Payments Each Year



         Figure 3: TIGTA Recommended Actions That Have Not Been Taken12

                                                                  Number of                 Potential Dollars
          Actions the IRS Could Take to                        Recommendations                 Protected
     Prevent/Reduce Improper EITC Payments                          Made                     (Over 5 years)
 Comply with regulations requiring some
 taxpayers who previously filed a fraudulent
                                                                           1                     $330 Million
 EITC claim to recertify their eligibility before
 receiving the EITC in a subsequent tax year.13
 Ensure taxpayers comply with the law governing
 EITC qualifying-child eligibility before allowing                         2                      $5.6 Billion
 EITC claims.14
 Use available third-party data to ensure
 taxpayers comply with the law requiring
                                                                           1                      $1.1 Billion
 individuals to have a Social Security Number
 that is valid for work when claiming the EITC.15
 Ensure taxpayers comply with the law that limits
 the use of a Taxpayer Identification Number to                            1                      $1.1 Billion
 claim the EITC on only one tax return.16
 Ensure it is effectively addressing tax return
 preparer compliance with the EITC Due                                     2                     $126 Million
 Diligence regulations.17
Source: TIGTA final audit reports issued between June 2003 and September 2010.




12
   The IRS disagreed with three of the seven recommendations referenced in this table. It agreed or partially agreed
with four recommendations. The IRS indicated that corrective actions for three of the four recommendations would
not be implemented until Calendar Year 2011 or later.
13
   While Progress Has Been Made, Limits on the Number of Examinations Reduce the Effectiveness of the Earned
Income Tax Credit Recertification Program (Reference Number 2008-40-131, dated July 3, 2008).
14
   The Earned Income Tax Credit Program Has Made Advances; However, Alternatives to Traditional Compliance
Methods Are Needed to Stop Billions of Dollars in Erroneous Payments (Reference Number 2009-40-024, dated
December 31, 2008).
15
   Better Use of Available Third-Party Data Could Identify and Prevent More Than One Billion Dollars in
Potentially Erroneous Refunds (Reference Number 2010-40-062, dated July 13, 2010).
16
   Multiple Use of Taxpayer Identification Numbers Continues to Result in Significant Erroneous Exemptions and
Credits (Reference Number 2010-40-117, dated September 14, 2010).
17
   Actions Can Be Taken to Improve the Identification of Tax Return Preparers Who Submit Improper Earned
Income Tax Credit Claims (Reference Number 2010-40-116, dated September 14, 2010).
                                                                                                            Page 9
                       Reduction Targets and Strategies Have Not Been
                    Established to Reduce the Billions of Dollars in Improper
                        Earned Income Tax Credit Payments Each Year



Recommendation
Recommendation 1: The Deputy Commissioner for Operations Support should establish
quantifiable reduction targets and strategies to meet those targets as required by Executive
Order 13520.
       Management’s Response: The IRS agreed with this recommendation, stating that its
       return preparer initiative is its most promising avenue to substantially reduce erroneous
       EITC payments. Sixty-six percent of all EITC tax returns and most EITC tax returns
       with errors are prepared by tax return preparers. The IRS is in the first year of a 3-year
       ramp-up of this initiative. After the program is fully established, the IRS will have a
       baseline against which it can set meaningful reduction targets.
       Office of Audit Comment: Although the IRS cited a number of actions taken to
       reduce improper EITC payments, by its own measurement, no significant improvement
       has resulted. As our report indicated, the IRS continues to report billions of dollars in
       improper EITC payments each year with FY 2009 estimates totaling $11 billion to
       $13 billion. The IRS also stated that it is moving beyond traditional compliance methods
       (audits) to address EITC improper payments. We disagree. As detailed in our report, the
       IRS has developed processes to successfully identify billions of dollars in erroneous
       EITC payments. However, despite our December 2008 recommendation to develop
       alternatives to traditional compliance, the IRS has not developed or proposed alternatives.
       As such, the majority of the potentially erroneous EITC claims identified continue to be
       paid in error.
       In addition, the IRS noted that its focus on tax return preparers will serve to improve
       EITC tax returns and further reduce EITC errors. We agree the regulation of tax return
       preparers will have some impact on reducing EITC improper payments. Nonetheless, the
       IRS report does not provide details on when or how the IRS plans to measure the impact
       of the tax return preparer strategy on EITC improper payments. As we noted in our
       report, the IRS has just begun implementing the tax return preparer strategy and does not
       anticipate the strategy will be fully implemented until 2014. Using IRS estimates for
       FY 2009, it is likely that the IRS will have issued anywhere from $55 billion to
       $65 billion in improper payments by FY 2014.
       IRS management also noted that they partially agree with four of the previous
       recommendations we cited in our report. However, the majority of the recommendations
       will not be implemented until 2013. The loss of billions of dollars in improper EITC
       payments annually calls for more aggressive and immediate actions to reduce improper
       payments by intensifying efforts to eliminate payment error, waste, fraud, and abuse.
       Executive Order 13520 requires the IRS to intensify its efforts and set targets to reduce
       EITC improper payments. The IRS has not met this requirement and, as a result, the risk


                                                                                          Page 10
                        Reduction Targets and Strategies Have Not Been
                     Established to Reduce the Billions of Dollars in Improper
                         Earned Income Tax Credit Payments Each Year



       remains high that no significant improvement will be made in reducing improper EITC
       payments.

The IRS has undertaken a number of initiatives to ensure access and
participation by eligible individuals
The Executive Order requires the IRS to include in its report to the TIGTA plans and supporting
analysis for ensuring the initiatives undertaken do not unduly burden program access and
participation by eligible beneficiaries. The IRS report noted the EITC participation rate for
individuals eligible to receive the credit is between 75 percent and 80 percent. However, the
report did not provide any details on the actions it is taking or plans to take to continue to ensure
eligible individuals have access to the EITC Program. Based on our prior reviews of the
administration and oversight of the EITC Program, we are aware of a number of initiatives the
IRS has undertaken to educate and assist eligible individuals in claiming the credit. These
include:
   •   Launching a targeted EITC marketing campaign to reach EITC eligible taxpayers using
       research as a basis on how this demographic receives information. The 2010 campaign
       included new innovative social media methods such as Twitter and YouTube.
   •   Partnering to conduct outreach with more than 300 coalitions, which represent hundreds
       of nonprofit organizations, financial institutions, and government agencies. These
       coalitions conduct their own local EITC outreach through direct mail and media efforts.
   •   Holding an annual National EITC Awareness Day to create national awareness of the
       EITC and educate the diverse EITC population. Actions include public appearances by
       members of Congress, State and local key government officials, and key IRS executives
       to discuss the benefits of the EITC and free tax help. In 2010, the White House issued a
       statement supporting the day.
   •   Improving information and tools available on the IRS web site (IRS.gov) to provide
       assistance to taxpayers, tax preparers, and the IRS EITC partners. For example, the IRS
       has updated the EITC Assistant, the EITC Electronic Toolkit for Tax Preparers, and the
       Electronic Toolkit for EITC Partners and has launched EITC Marketing Express.
   •   Launching a new electronic toolkit (EITC Central) for partners and practitioners
       containing information, best practices, tools, and customizable products to reach the
       underserved taxpayer and improve the quality of EITC returns. This year, the IRS added
       an EITC due diligence continuing education training course to help tax preparers meet
       their due diligence requirements.
   •   Working with State governments to support EITC awareness and participation through
       their communication channels. Encouraging partnerships with those States that have an


                                                                                             Page 11
                             Reduction Targets and Strategies Have Not Been
                          Established to Reduce the Billions of Dollars in Improper
                              Earned Income Tax Credit Payments Each Year



           EITC equivalent in sending out notices to taxpayers who appear to be eligible for the
           EITC on their Federal return but did not claim the Credit.
       •   Providing key EITC Program information during annual Nationwide Tax Forum
           Presentations.
       •   Sending computer-generated notices proactively to taxpayers who file tax returns and
           appear to be eligible for the EITC but did not claim the Credit. For example, the IRS sent
           more than 570,000 notices based on information reported on TY 2008 returns.

Privacy laws limit the IRS’s ability to comply with quarterly reporting
requirements
The Executive Order requires the IRS to report quarterly on the number of high-dollar improper
payments made during the quarter, the individuals or entities who received the payments, and the
actions taken or planned to recover the improper payments. A high-dollar overpayment is
defined by the OMB as any overpayment that is in excess of 50 percent of the correct amount of
the intended payment and when the total payment to an individual exceeds $5,000. Agencies are
required to provide this information for public release unless the information requested is
protected by privacy rules or regulations. OMB
guidance issued in March 2010 further clarified that
                                                                IRS management indicated that
agencies with no high-dollar activity in a given quarter         they cannot meet the quarterly
were not required to report for that quarter.                 reporting requirement because the
                                                                         IRS is prohibited from publicly
The IRS is prohibited from publicly releasing individual          releasing individual tax
tax information under Internal Revenue Code                             information.
Section 6103(a). As a result, the IRS is not required to
publish the names of the individuals who received a
high-dollar improper EITC payment in any given quarter. The IRS issues EITC payments to
taxpayers once a year. As a result, the IRS would be subject to a quarterly reporting
requirement only for the quarter in which EITC payments are issued, generally the first and/or
second quarter of the calendar year. The IRS would also be subject to a quarterly reporting
requirement only if it had issued an improper payment exceeding $5,000 in any given quarter.
However, the IRS should be aware that it may be required to report such payments in the future.
The maximum EITC available to taxpayers is historically below the $5,000 high-dollar
threshold established in the OMB guidance. However, recent law18 added a level of the EITC
for families with 3 or more children and raised the maximum available EITC to more than
$5,000 for TY 2009 and TY 2010 tax returns. While the privacy requirements in place prevent
the IRS from providing individual taxpayer information, it does not prevent the IRS from



18
     American Recovery and Reinvestment Act of 2009, Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                                    Page 12
                         Reduction Targets and Strategies Have Not Been
                      Established to Reduce the Billions of Dollars in Improper
                          Earned Income Tax Credit Payments Each Year



providing aggregate information for high-dollar improper payments or its efforts to recover and
prevent such payments.

The Internal Revenue Service Continues to Improve Its Estimation of
Earned Income Tax Credit Improper Payments
The methodology used to compute the FY 2009 EITC improper payment rate provides a valid
estimate of the percentage and amount of EITC overpayments. However, the improper payment
calculation does not include the amount of EITC underpayments. Underpayments include EITC
payments made to individuals that are less than the individual was entitled to receive. The
formula used by the IRS to compute the improper payment rate of EITC claims is shown in
Figure 4.
                      Figure 4: Improper EITC Payment Rate Formula

                       Total Overclaims – Total Claims Protected/Recovered
                                       Total EITC Claims

 Total Overclaims – the difference between the amount of the EITC claimed by the taxpayer
 on his or her tax return and the amount the taxpayer should have claimed.
 Total Claims Protected/Recovered – the amount the IRS prevents (protects) in EITC
 overclaims through various activities including math error processing and pre-refund
 examinations. This data element also includes the amount the IRS recovers in overclaims that
 were erroneously paid. Recovery activities include Automated Underreporter examinations
 and post-refund examinations.

 Total EITC Claims – the amount of EITC claimed on all tax returns.
Source: Initial Report on Earned Income Tax Credit Improper Payments Executive Order 13520: Reducing
Improper Payments.

The IRS is improving the timeliness of data used to compute the improper
payment estimate
The IRS used results from its National Research Program (NRP) for TY 2001 tax returns to
estimate the FY 2009 EITC improper payment rate. The NRP data are used to estimate total
EITC overclaims, total EITC claims, and the math error portion of total claims recovered. IRS
management indicated that the NRP is the sole source of data the IRS uses to estimate taxpayer
EITC behavior for the purpose of estimating the EITC improper payment rate. The NRP
provides the IRS with compliance information that is statistically representative of the taxpayer
population. The TY 2001 NRP results are based on a random sample of 44,800 individual tax
returns that were audited in order to determine taxpayer compliance. The sample is grouped into
                                                                                                  Page 13
                          Reduction Targets and Strategies Have Not Been
                       Established to Reduce the Billions of Dollars in Improper
                           Earned Income Tax Credit Payments Each Year



predefined categories that represent a specific area of compliance that the IRS and its
stakeholders are interested in measuring. The sample included approximately 6,500 EITC tax
returns.
Although the IRS has attempted to assess the level of EITC compliance since 2002, the
methodologies used were not consistent. In 2005, the IRS developed the EITC improper
payment rate. However, this rate is still not a current measure of EITC compliance because it is
                                         not based on current tax returns. Although the rate was
                                         established in 2005, it was based on the TY 2001 NRP
        Beginning with TY 2006,
     the IRS performs NRP audits
                                         tax returns. The IRS applies the TY 2001 rate to the
     each year allowing the IRS to       total EITC payments in a given year to estimate the
       update the EITC improper          amount of improper payments for that year. According
    payment rate annually starting       to IRS management, after the TY 2001 NRP, there was
         in Calendar Year 2010.          no funding to perform another NRP until 2006.
                                         In 2007, the IRS began the process of updating its NRP
data by reviewing a stratified, randomly selected sample of TY 2006 individual tax returns. The
TY 2006 NRP used a sample of approximately 14,000 individual tax returns. The sample
included about 2,200 EITC tax returns. The IRS plans to select a new sample of the next tax
year’s tax returns annually. The IRS will use each year’s NRP results to update the improper
payment rate. According to IRS management, the FY 2010 improper payment rate will be based
on the results of the TY 2006 NRP. Although the new NRP process will result in a more current
estimate of the accuracy of EITC claims, the estimated improper payment rate for a given fiscal
year will not be based on current year data. Because of the time it takes to complete the annual
NRP, the IRS’s annual estimate will be based on data that are approximately 3 years old.
In addition, IRS management stated that the IRS plans to update its comprehensive EITC
compliance study in Calendar Year 2012 using the first 3 consecutive years of NRP data.19 The
EITC compliance study is an analysis of tax returns claiming the EITC with specific attention
given to the source of EITC errors. The last EITC compliance study conducted that included this
type of detailed EITC information was based on TY 1999 tax returns. The IRS believes the
ability to update its EITC compliance study will enable it to measure its success in reducing
erroneous EITC payments. Further, the IRS notes that after 2012, it should also be able to
update its compliance study annually.

Underpayments need to be included in EITC improper payment estimates
The OMB defines an improper payment as any payment that should not have been made or that
was made in an incorrect amount. Using this definition, any EITC payment made to an
individual that was less than the individual should have received (underpayment) is also

19
  Beginning with TY 2006, the IRS will update its EITC compliance study using NRP data. Every third year, data
for the 3 most recent tax years will be blended together to achieve improved statistical precision.
                                                                                                      Page 14
                            Reduction Targets and Strategies Have Not Been
                         Established to Reduce the Billions of Dollars in Improper
                             Earned Income Tax Credit Payments Each Year



considered an improper payment.20 IRS management indicated that they are unable to determine
when an individual is eligible for the EITC but does not claim it. However, these types of “no
claims” are not underpayments by definition. An underpayment only occurs when the IRS
incorrectly pays less in the EITC than the taxpayer claims. The IRS did not provide an
explanation as to why it has not estimated the amount of EITC claims the IRS incorrectly
reduced during tax return processing resulting in an EITC payment less than the individual was
entitled to receive.21
One of the reasons the IRS has not estimated the amount of EITC payments incorrectly made for
less than the amount claimed could be the tool the IRS uses to estimate the EITC improper
payment rate. The focus of the NRP is to assess the level of voluntary taxpayer compliance and
is aimed at closing the tax gap.22 The study gathers strategic information about taxpayer
compliance behavior that will allow the IRS to better allocate its resources to enforcement and
service activities, which are intended to bring taxpayers into compliance. As a result, the IRS’s
focus when reviewing tax returns selected for the NRP is on identifying overpayments, not
underpayments. While one goal of the NRP may be to identify noncompliance, the statistical
nature of the study provides the IRS the opportunity to estimate EITC underpayments based on
the NRP sample as well as the overpayments.
By not including EITC underpayments in the estimate of EITC improper payments, the IRS is
understating the rate and/or dollar value of improper payments being made. While we are unable
to determine at this time the significance of underpayments on the overall EITC improper
payment rate, it may be beneficial for the IRS to capture these data in the NRP results it
evaluates when updating the improper payment rate for future fiscal years.

Recommendation
Recommendation 2: The Deputy Commissioner for Operations Support should use the NRP
sample to estimate instances in which the IRS incorrectly pays less in the EITC than the taxpayer
claims (underpayments).
         Management’s Response: IRS management agreed in concept with this
         recommendation and will explore whether using the NRP sample is possible and
         practical. Underpayments happen so infrequently in the NRP sample that the IRS may be
         unable to use NRP audit results to construct a statistically valid estimate of a population
         total. Further, there is nothing in TIGTA’s report or otherwise to substantiate that the

20
   An individual who is entitled to receive the EITC but does not claim it on his or her tax return does not constitute
an EITC underpayment within the OMB definition of improper payments.
21
   The amount of underpayments would be limited to the difference between what the taxpayer correctly claimed on
his or her tax return and the amount of EITC actually paid.
22
   The tax gap is the difference between the true tax liability required under the Internal Revenue Code and the
amounts that are reported and paid on a timely basis.
                                                                                                              Page 15
                Reduction Targets and Strategies Have Not Been
             Established to Reduce the Billions of Dollars in Improper
                 Earned Income Tax Credit Payments Each Year



IRS underpays a significant number of properly computed EITC claims. Also, since
approximately 70 percent of all returns are filed electronically, there is no opportunity for
any such IRS errors on these returns. For the residual 30 percent of returns filed on
paper, the refund error rate was 2 percent during FY 2009, which makes it highly
unlikely IRS underpayment errors for EITC are significant.




                                                                                     Page 16
                       Reduction Targets and Strategies Have Not Been
                    Established to Reduce the Billions of Dollars in Improper
                        Earned Income Tax Credit Payments Each Year



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the IRS’s efforts to implement Executive
Order 13520. To accomplish this objective, we:
I.     Determined whether the IRS included required reporting deliverables in its report to the
       TIGTA by reviewing the IRS report on EITC improper payments to determine if the
       report included:
       A. A methodology for identifying and measuring EITC improper payments.
       B. Plans and supporting analysis for meeting the reduction targets for EITC improper
          payments.
       C. Plans and supporting analysis for ensuring the initiatives undertaken to reduce
          improper payments do not unduly burden program access and participation by
          eligible beneficiaries.
II.    Assessed IRS compliance with reporting requirements contained in the Executive Order
       by discussing with the IRS its plans for publishing the name of the official accountable
       for EITC improper payments; current and historical rates and amount of EITC improper
       payments, including causes; current and historical rates and amount of recovery of EITC
       improper payments; targets for reducing as well as recovering EITC improper payments;
       and entities that have received the greatest amount of EITC improper payments. We also
       discussed with the IRS its plans for submitting a quarterly report to the TIGTA and
       Council of the Inspectors General on Integrity and Efficiency and making available to the
       public a quarterly report on EITC improper payments that includes actions the IRS has
       taken or plans to take to recover improper payments and actions the IRS intends to take to
       prevent improper payments from occurring in the future.
III.   Evaluated the IRS’s methodology for identifying, measuring, and reducing EITC
       improper payments while ensuring eligible individuals continue to have access to the
       Program.
       A. Reviewed the IRS report to the TIGTA on EITC improper payments to determine the
          accuracy and completeness of the information provided and met with the IRS Office
          of Research, Analysis, and Statistics to discuss the methodology and data used to
          compute the EITC improper payment rate. We also obtained and reviewed
          supporting documentation for the methodology and data used to compute the EITC
          improper payment rate and met with the IRS Office of Research, Analysis, and


                                                                                            Page 17
                       Reduction Targets and Strategies Have Not Been
                    Established to Reduce the Billions of Dollars in Improper
                        Earned Income Tax Credit Payments Each Year



           Statistics to discuss the NRP methodology for EITC claims as well as the planned
           schedule for completion and availability of data by tax year.
       B. Evaluated the IRS’s plans for meeting the reduction targets for EITC improper
          payments by contacting the OMB to determine if the IRS is required to establish and
          meet reduction targets for EITC improper payments and contacted IRS personnel to
          determine plans for establishing and meeting the reduction targets.
       C. Evaluated the IRS’s plans to ensure eligible individuals continue to have access to the
          EITC by reviewing TIGTA reports relating to the EITC Program that were issued
          between Calendar Years 2003 and 2010 and identifying findings and
          recommendations made related to improving participation in the EITC Program. We
          identified IRS corrective actions taken in response to TIGTA recommendations. We
          also contacted the EITC Office to discuss any new initiatives it may be taking to
          ensure eligible individuals continue to have access to the EITC Program and
          determined whether the IRS’s actions to increase EITC participation will reasonably
          ensure eligible individuals have access to the EITC Program.
       D. Assessed level of risk and oversight warranted.
IV.    Determined whether EITC Program information captured and compiled by the IRS could
       be used to compute a more current estimate of EITC improper payments. To accomplish
       this, we gathered available IRS statistics for Processing Year 2009 including the number
       and value of EITC claims, the number and value of EITC claims paid, the number and
       value of potentially erroneous EITC claims identified by the IRS, and the number and
       value of erroneous EITC claims prevented or recovered through enforcement programs.
       We met with the TIGTA contract statistician to determine whether the methodology used
       by the IRS was a sound statistical methodology.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: controls in place to ensure the IRS met the
reporting requirements established in Executive Order 13520.




                                                                                           Page 18
                      Reduction Targets and Strategies Have Not Been
                   Established to Reduce the Billions of Dollars in Improper
                       Earned Income Tax Credit Payments Each Year



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Deann L. Baiza, Audit Manager
Kathleen A. Hughes, Lead Auditor
Sandra L. Hinton, Senior Auditor
Steven E. Vandigriff, Senior Auditor




                                                                                    Page 19
                      Reduction Targets and Strategies Have Not Been
                   Established to Reduce the Billions of Dollars in Improper
                       Earned Income Tax Credit Payments Each Year



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Assistant Deputy Commissioner for Operations Support OS
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Deputy Director, Office of Research, Analysis, and Statistics RAS
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Earned Income Tax Credit, Wage and Investment Division SE:W:ETARC:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                     Page 20
            Reduction Targets and Strategies Have Not Been
         Established to Reduce the Billions of Dollars in Improper
             Earned Income Tax Credit Payments Each Year



                                                         Appendix IV

     Internal Revenue Service Report to the
Treasury Inspector General for Tax Administration




                                                                Page 21
   Reduction Targets and Strategies Have Not Been
Established to Reduce the Billions of Dollars in Improper
    Earned Income Tax Credit Payments Each Year




                                                       Page 22
   Reduction Targets and Strategies Have Not Been
Established to Reduce the Billions of Dollars in Improper
    Earned Income Tax Credit Payments Each Year




                                                       Page 23
   Reduction Targets and Strategies Have Not Been
Established to Reduce the Billions of Dollars in Improper
    Earned Income Tax Credit Payments Each Year




                                                       Page 24
   Reduction Targets and Strategies Have Not Been
Established to Reduce the Billions of Dollars in Improper
    Earned Income Tax Credit Payments Each Year




                                                       Page 25
   Reduction Targets and Strategies Have Not Been
Established to Reduce the Billions of Dollars in Improper
    Earned Income Tax Credit Payments Each Year




                                                       Page 26
   Reduction Targets and Strategies Have Not Been
Established to Reduce the Billions of Dollars in Improper
    Earned Income Tax Credit Payments Each Year




                                                       Page 27
   Reduction Targets and Strategies Have Not Been
Established to Reduce the Billions of Dollars in Improper
    Earned Income Tax Credit Payments Each Year




                                                       Page 28
   Reduction Targets and Strategies Have Not Been
Established to Reduce the Billions of Dollars in Improper
    Earned Income Tax Credit Payments Each Year




                                                       Page 29
   Reduction Targets and Strategies Have Not Been
Established to Reduce the Billions of Dollars in Improper
    Earned Income Tax Credit Payments Each Year




                                                       Page 30
   Reduction Targets and Strategies Have Not Been
Established to Reduce the Billions of Dollars in Improper
    Earned Income Tax Credit Payments Each Year




                                                       Page 31
         Reduction Targets and Strategies Have Not Been
      Established to Reduce the Billions of Dollars in Improper
          Earned Income Tax Credit Payments Each Year



                                                      Appendix V

Management’s Response to the Draft Report




                                                             Page 32
   Reduction Targets and Strategies Have Not Been
Established to Reduce the Billions of Dollars in Improper
    Earned Income Tax Credit Payments Each Year




                                                       Page 33
   Reduction Targets and Strategies Have Not Been
Established to Reduce the Billions of Dollars in Improper
    Earned Income Tax Credit Payments Each Year




                                                       Page 34
   Reduction Targets and Strategies Have Not Been
Established to Reduce the Billions of Dollars in Improper
    Earned Income Tax Credit Payments Each Year




                                                       Page 35
   Reduction Targets and Strategies Have Not Been
Established to Reduce the Billions of Dollars in Improper
    Earned Income Tax Credit Payments Each Year




                                                       Page 36
